               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00910-205


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

      Jonathan M. Wainwright 

    Memorial VA Medical Center 

     Walla Walla, Washington 





July 7, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
      CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
       CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of April 21, 2014, at the following
CBOC which is under the oversight of the Jonathan M. Wainwright Memorial VA
Medical Center and Veterans Integrated Service Network 20:

    Yakima CBOC, Yakima, WA

Review Results: We conducted four focused reviews and made recommendations
in all of the review areas:

Environment of Care. Ensure that:

	    Staff can access the electronic version of the inventory of hazardous materials at the
      Yakima CBOC.

	    Women veterans can access gender-specific restrooms without entering public
      areas at the Yakima CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently document diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff provide education and counseling for patients with positive alcohol screens and
      drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	    Managers ensure that patients with excessive persistent alcohol use receive brief
      treatment or are evaluated by a specialty provider within 2 weeks of the screening.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Consistently provide       written   medication     information     that   includes    the
      fluoroquinolone.

	    Document the evaluation of patient’s level of understanding for the medication
      education.




VA OIG Office of Healthcare Inspections                                                        i
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


Designated Women’s Health Providers’ Proficiency. Ensure that all Designated
Women’s Health Providers:

   Maintain proficiency as required for the provision of women’s health care.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16−21, for the full text of the Directors’ comments). We will follow up on
the planned actions for the open recommendations until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
        CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
      CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
               CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Yakima CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.
Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
 NA    The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             The staff at the Yakima CBOC could not
       inventory of hazardous materials and waste        demonstrate how to access the electronic
       that it uses, stores, or generates.               version of inventory without coaching.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                                3
              CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


NM              Areas Reviewed (continued)                                Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              Gowned women veterans at the Yakima CBOC
       veterans in the examination room.                  cannot access gender-specific restrooms
                                                          without entering public areas.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that managers ensure staff can access the electronic version of the
inventory of hazardous materials at the Yakima CBOC.




VA OIG Office of Healthcare Inspections                                                               4
              CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


2. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Yakima CBOC.




VA OIG Office of Healthcare Inspections                                                               5
               CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 13 (34 percent) of 38 patients who had
                                                          positive alcohol use screens.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 4 of 22 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for two of nine patients.
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                       6
              CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


4. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.

5. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.




VA OIG Office of Healthcare Inspections                                                               7
              CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 13 of 17 patient EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 6 of 19
       medications was provided at the end of the        patients received written information that
       outpatient encounter.                             included the fluoroquinolone.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 18 of 19 patients.
       education provided.
       The facility complied with local policy.

Recommendations

6. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed or
modified.

7. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

8. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                  8
              CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
 X     CBOC and PCC DWHPs maintained                   Five of 11 DWHPs with panels comprised of less
       proficiency requirements.                       than 10 percent women veterans at the CBOC
                                                       and/or PCCs did not have evidence of
                                                       implementation of alternative plans to ensure
                                                       ongoing proficiency in WH care.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.

Recommendation

9. We recommended that clinical executive/primary care leaders ensure that CBOC/PCC
Designated Women’s Health Providers maintain proficiency as required for the provision of
women’s health care.




VA OIG Office of Healthcare Inspections                                                               9
                                                  CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                                                                 Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                    Encounters4

                                 Station                    CBOC
       Location        State                 Locality5                    MH7        PC8       Other9        All       MH7         PC8       Other9       All
                                    #                        Size6
    Richland          WA        687GA        Urban       Mid-Size        1,185       3,020      4,011       4,326      6,998      6,298     14,904     28,200
    Yakima            WA        687HA        Urban       Mid-Size          949       3,194      3,686       3,911      4,247      4,696     24,478     33,421
    Lewiston          ID        687GB        Urban       Mid-Size          626       2,693      2,508       3,180      2,945      6,973     12,867     22,785
    La Grande         OR        687GC        Rural       Mid-Size          249       1,495      1,352       1,691      2,063      4,298      6,470     12,831




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         10
         CBOC and PCC Reviews Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                                Tele-Health
             CBOC                                               Ancillary Services12
                                     Services11                                                  Services13
    Richland                       Dermatology                     Laboratory                Tele Primary Care
                                                                      VIST14
                                                                   Social Work
                                                                MOVE! Program15
                                                                 Diabetic Retinal
                                                                    Screening
                                                                     Nutrition
    Yakima                         Dermatology                     Laboratory                Tele Primary Care
                                                                MOVE! Program
                                                                    Pharmacy
                                                                     Nutrition
                                                                 Diabetic Retinal
                                                                    Screening

    Lewiston                       Dermatology                      Pharmacy                 Tele Primary Care
                                                                 MOVE! Program
                                                                     Nutrition
                                                                 Diabetic Retinal
                                                                    Screening
    La Grande                      Dermatology                     Social Work               Tele Primary Care
                                                                 MOVE! Program
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14
    The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely

disabled and visually impaired Veterans and active duty service members.

15 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                 CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                                                                Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                 CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                13
                                                 CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                 CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   15
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                    Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:        June 12, 2014

          From:         Director, Northwest Network (10N20)

       Subject:         CBOC and PCC Reviews of the Jonathan M. Wainwright
                        Memorial VA Medical Center, Walla Walla, WA

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)



       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews of the Jonathan M. Wainwright Memorial
          VA Medical Center, Walla Walla, Washington.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Green, Survey Coordinator, VISN 20 at (360) 567-4678.



       (original signed by:)
       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                     16
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                    Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:        June 6, 2014

          From:         Director, Jonathan M. Wainwright Memorial VAMC (687/00)

       Subject:         CBOC and PCC Reviews of the Jonathan M. Wainwright
                        Memorial VA Medical Center, Walla Walla, WA

             To:        Director, Northwest Network (10N20)



       I have reviewed the attached action plans for the areas of improvement
       recommended by the CBOC and PCC Reviews of the Jonathan M.
       Wainwright Memorial VA Medical Center, Walla Walla, WA and I concur
       with all recommended improvement actions.



       (original signed by:)
       Brian Westfield, MSN
       Director




VA OIG Office of Healthcare Inspections                                                     17
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure staff can access the
electronic version of the inventory of hazardous materials at the Yakima CBOC.

Concur

Target date for completion: October 1, 2014

Facility response: The Green Environmental Management Systems (GEMS) coordinator
will conduct refresher training for Yakima CBOC staff that will include how to access the
electronic version of the inventory of hazardous materials. All staff will demonstrate to
the Clinic Manager knowledge of how to access the electronic version of the hazardous
inventory.

The Clinic Manager will document the training and the proficiency of each individual
staff member to ensure 100% of current staff is able to access the inventory. The Clinic
Manager will ensure that any new employee receives similar training and will document
for each individual. The Clinic Manager will reassess the staff again in three months
(September 2014) to determine level of continued compliance.

Recommendation 2. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Yakima CBOC.

Concur

Target date for completion: October 1, 2014

Facility response: The Outpatient Clinic Rooming Standard Operating Procedure (SOP)
will be modified to include instructions that the staff rooming the patient shall ask female
patients if they need to use the restroom before donning an examination gown. Women
veterans should be directed to use the restroom near the Laboratory at the Yakima
CBOC as it offers more privacy than the main public restroom. All clinic staff will be
trained on the procedure. The Clinic Manager will document the training for each
individual. The Clinic Manager will monitor via observation and report compliance
monthly to the Executive Committee of the Medical Staff (ECMS). The ECMS will
ensure at least 90% compliance for three consecutive months.

Recommendation 3.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.


VA OIG Office of Healthcare Inspections                                                     18
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


Concur

Target date for completion: October 1, 2014

Facility response: The clinical reminder to ensure monitoring of alcohol use will be
updated and implemented. CBOC/Primary Care clinic staff caring for outpatients will be
educated on the revised Audit C clinical reminder template, education and training to be
conducted by the Clinical Applications Coordinator. The Chief of Staff and Nurse
Manager will conduct training for warm handoffs and document for each individual.

Compliance will be monitored and reported monthly to the Executive Committee of the
Medical Staff. The Executive Committee of the Medical Staff will ensure at least
90% compliance for three consecutive months.

Recommendation 4. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: October 1, 2014

Facility response: The clinical reminder on positive alcohol screens and drinking above
National Institute on Alcohol Abuse and Alcoholism limits has been updated. The Chief
of Staff and/or Nurse Managers will conduct training for the CBOC and Primary Care
Clinics on updated clinical reminder and expectations.

The Clinical Application Coordinators will monitor and report compliance monthly to the
ECMS. The ECMS will ensure 90% compliance for three consecutive months.

Recommendation 5. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: October 1, 2014

Facility response: The clinical reminder to ensure staff offer and document further
treatment to patients diagnosed with alcohol dependence will be updated and
implemented. The Chief of Staff and/or Nurse Managers will conduct training for the
CBOC and Primary Care Clinics, on updated clinical reminder and expectations.

The Clinic Application Coordinators will monitor and report compliance monthly to the
ECMS. The ECMS will ensure 90% compliance for three consecutive months.




VA OIG Office of Healthcare Inspections                                                     19
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


Recommendation 6.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: October 1, 2014

Facility response: The Chief of Staff will conduct training for the CBOC and Primary
Care providers on the need for documentation of medication reconciliation with patients
including fluoroquinolones. Providers will be instructed to add medication reconciliation
of newly prescribed medications to their templates. The Chief of Staff will validate the
templates are in compliance with expectations.

Compliance with documentation of reconciliation will be monitored monthly and reported
to the ECMS. The ECMS will ensure 90% compliance for three consecutive months.

Recommendation 7.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: October 1, 2014

Facility response: The Chief of Staff will conduct training for the CBOC and Primary
Care providers on the need to provide written information to patients that include
fluoroquinolone. Providers will add documentation of information given to their
templates. Printouts of the provider’s plan, or a trifold handout on fluoroquinolones, will
be given to all patients prior to checkout.

Compliance will be monitored monthly by the Chief of Staff and reported to the ECMS.
The ECMS will ensure compliance of 90% for three consecutive months.

Recommendation 8. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: October 1, 2014

Facility response: The Chief of Staff will conduct training for the CBOC and Primary
Care providers on provision and documentation of the evaluation of patient’s and/or
caregivers’ understanding of medication education. The Clinical Application
Coordinators will add patient’s level of understanding of education to templates.

Compliance will be monitored monthly by the Chief of Staff and reported to the ECMS.
The ECMS will ensure 90% compliance for three consecutive months.




VA OIG Office of Healthcare Inspections                                                     20
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA


Recommendation 9. We recommended that clinical executive/primary care leaders
ensure that CBOC/PCC Designated Women’s Health Providers maintain proficiency as
required for the provision of women’s health care.

Concur

Target date for completion: September 1, 2014

Facility response: All Designated Women Health Providers who did not have
documented training for proficiency of women’s health care will complete mini-
residency/training to be able to demonstrate women’s health care proficiency. All
providers without documented training have been registered and been accepted into
training programs.




VA OIG Office of Healthcare Inspections                                                     21
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sarah Mainzer, RN, JD, Team Leader
Contributors            Mary Noel Rees, MPA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     22
     CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 20 (10N20)
Director, Jonathan M. Wainwright Memorial VA Medical Center (687/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Maria Cantwell, Mike Crapo, Jeff Merkley, Patty Murray, James E. Risch,
 Ron Wyden
U.S. House of Representatives: Doc Hastings, Raul Labrador, Cathy McMorris
 Rodgers, Greg Walden


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     23
        CBOC and PCC Reviews at Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, WA
                                                                                       Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
